Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   THE   RYAN WHITE                 CARE ACT:
 H 1992TITLE         1AND TITLE II EXPENDITURES




                  ssmc~
              #
         *+4              “%
                               JUNE GIBBS BROWN



                  4
         b?
         3                     Inspector General
         :
         %                c
           %*                      APRIL1994
            %m                      05-93-00331
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the inte@y of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries send by those programs. This
statutory mission is carried out through a nationwide network of audita, investigations, and
inspections conducted by three OIG operating components: the Offke of Audit Services, the
Office of Investigations, and the Offke of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Semkes (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGA~ONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-todate information on the efilciency, vulnerability,

and effectiveness of departmental programs.


This report was prepared under the direction of William Moran, the Regional Inspector

General, and Natalie Coen, Deputy Regional lrtspector General, for the Office of Evaluation

and Inspections, Region V. Participating in this project were the following people:


Retrion V                                                                 Headquarters


Barbara But~ Project Leader                                               Alan S. Levine

Jean Dufresne

Ellen Meara

Heather Robertson


For a copy of this report, please call (312) 3534124,

Department of Health and Human Services

          OFFICE OF

     INSPECTOR GENERAL




     THE    RYAN WHITE            CARE ACT:

 ~   1992   TITLE I AND TITLE II EXPENDITURES




                 $SQWC4

                 @    “%
             **4
                           JUNE  GIBBS BROWN
             E
             3             Inspector  General
             s
                      c
             ‘%                   APRIL 1994
               %aza
                4
                                  05-93-00331
                     TABLE                     OF CONTENTS

                                                                                                                  PAGE

~ODU~ON                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 Combined Expenditures            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 Title IExpwditures...      .......             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


 Title II Expenditures        . . . . . . ... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES


ASurnmary      Chart of Expenditures              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Title II Expenditures by Option                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                          INTRODUCTION


PURPOSE


To describe grantee expenditures in Fiscal Year 1992 for Title I and Title II of the

Ryan White Act.


BACKGROUND


On August 18, 1990 Congress passed Public Law 101-381 entitled The Ryan White

Comprehensive AIDS Resources Emergency (CARE) Act of 1990 (the Act). The Act

was created as a comprehensive response to the Human Immunodeficiency           Virus

(HIV) epidemic and its impact on individuals, families, communities, cities, and States.

Its purpose was to provide “emergency assistance to localities ... disproportionately

affected by the Human Irnmunodeficiency Virus epidemic and to make financial

assistance available to States and other public or private nonprofit entities to provide

for the development, organization, coordination and operation of more effective and

cost efficient systems for the delivexy of essential semices to individuals and families

with HIV disease”.


Congress funded the Ryan White Act at $221 million for Fiscal Year (FY) 1991, $276

million for FY 1992, $338 million for FY 1993, and $579.4 million for FY 1994. The

Health Resources and Sewices Administration (HRSA) within the Public Health

Service administers the Act.


Four titles direct resources to various entities, allowing maximum flexibility to

grantees, particularly at the local level, in the use of funds. The first two titles, which

are the subject of this repor$ constitute 88 percent of Ryan White funding for FY

1994.


Title ~ funded at $325.5 million for FY 1994, comprises 56 percent of Ryan White

funding. This title provides emergency relief grants to eligible metropolitan areas

(EMAs) for HIV-related outpatient and ambulatory health and support semices,

including case management and comprehensive treatment sexvices. Public or

nonprofit private “organizations are eligible for funding to provide services on a

contract basis with the EMA.


Half of the funds are distributed to EMAs through formula grants and half through

competitive supplemental grants. In FY 1992, the year addressed in this report, 18

EMAs received about $120 million (formula and supplemental fimds combined).


Title ~ funded at $183.9 million for FY 1994, comprises 32 percent of Ryan White

funding. This title provides formula grants to States and territories to improve the

quality, availability and organization of health care and support services for individuals



                                              1
and families with HIV disease.   States receive a minimum of $100,000.

In FY 1992, the year addressed in this report, HRSA awarded 54 formula grants to
States and territories totaling $99 million. States have the option of using Title II
funds in one or more of the following ways.

  �	     They may establish HIV care consortia within areas most affected by HIV
         disease, to provide a comprehensive continuum of care. Consortia must:
         consist of public and nonprofit private, health care and support semice
         providers, and community based organizations; assist in the planning,
         development, and delivery of comprehensive outpatient health and support
         services; conduct a needs assessment; and create a mechanism to periodically
         evaluate their major duties. States that report 1 percent or more of all
         AIDS cases reported to CDC nationally must use 50 percent of their funds
         to operate consortia.

  �	     They may provide home and community-based          care services, including
         outreach services to individuals in rural areas.

  �	      They may provide treatments (medications)     that prolong life or prevent
          serious deterioration of health.

  �	      They may provide assistance to assure the continuity of health insurance
          coverage.

SCOPE AND METHODOLOGY

The Ryan White CARE Act will come up for reauthorization for FY 1996. This study
is one in a series on the implementation of the Act meant to provide information
useful for the debate surrounding reauthorization. The other reports in the series are:
Funding Formulas (OEI-05-93-O0330); Special Projects of National Significance (OEI-
05-93-00332); Consortia Activities (OEI-05-93-O0333). Our report entitled “The Ryan
White CARE Act: Technical Report” (OEI-05-93-00334) is a companion to this report.

This report is a descriptive analysis of Title I and Title II expenditures for FY 1992.
Our study was not an evaluation of the Ryan White program or any individual grantee.
We did not ask for explanations from grantees of why funds were spent as they were,
or obtain any description of the semices provided, including their quality or
effectiveness.

We examined   how expenditures were distributed, nationally and by grantee, across
several broad categories. Our analysis is based on data presented by grantees in year-
end reports. We used the data as presented and did not attempt to veri~ its accuracy.

For Title I, HRSA extracted, and then gave us for our analysis, expenditure data from
year-end reports submitted by most of the grantees. We also examined a few Title I


                                            2
year-end reports ourselves and contacted two grantees about incomplete or unclear
information. For Title II, we reviewed year-end reports from grantees and
subsequently contacted each of them about missing or unclear information.

This inspection was conducted in accordance with the Standards for Impactions issued
by the President’s Council on Integrity and Efficiency.




                                          3

                                 FINDINGS


INTRODUCI’ION


This report describes Ryan White Fiscal Year 1992 expenditures      by semice for Titles 1

and II.


Grantees are required in the law to report aggregate expenditures for each sewice.

However, in the process of gathering data for this report, we encountered a number of

problems affecting the reliability of the data as reported, problems of which readers

should be aware.


First, we found that Title II data, especially, was often incomplete or unclear, Some

grantees reported award amounts exceeding the amounts reported by HRSA, in some

cases the difference was due to FY 1991 carryover that a grantee had not reported 10

HRSA as of summer and early fall of 1993, when we gathered our data. As for

expenditures, grantees with consortia, especially, often said it was difficult to break

expenditures down by service. Some were dealing with a number of consortia and

lacked a standard reporting format. Others said that consortia reported inforrnat ion

with vmying degrees of detail or in different formats. Many grantees submitted two or

more versions of expenditures in an attempt to reconcile their figures.


Secondly, we also know, both from comments in the reports themselves and

discussions with grantees, that many grantees, for both titles, provided estimates or

obligated amounts rather than expenditures.


Notwithstanding these problems, we have based our report strictly on the figures as

presented to us by grantees. We consider this to be the best information available on

expenditures, given the time and resources available to us to obtain it. The HRSA has

been piloting and will soon implement a new data collection system for grantees.

They expect the new system to provide more detailed, timely, and accurate

information.


For purposes of analysis, we divided expenditures into four broad categories: medical

semi-     pharmaceutical@ support servi~    and administration. Both the medical

sexvices and support services categories are comprised of a number of individual

semices which we ident~ in the narrative of the report. We discuss pharmaceut ica Is

immediately following medical semices, since they are directly related to the provision

of health care.


We first examine Title I and Title II expenditures combined, follow with separate
sections describing expenditures for each title, and conclude with a brief summary
comparison of expenditures by both titles. Throughout, we compare expenditures
both across and within the four broad categories.    We also highlight the expenditures
of the grantees that accounted for the largest proportion of expenditures for each tit It.
                 COMBINED TITI.EIAND                  TITLE II EXl?ENDITURES

Me&a/    servic~ and support services each accounted for about 35 percent of combined
*h,           phm=hah         for20per=n4 and a&nb&rntiofi about 10percent
Collectively Title I and Title II grantees reported spending $210,603,992. This is 93
percent of the FY 1992 grant awards for the two programs, combined, which HRSA
provided to us as we collected and analyzed the data for this study in the summer and
fall of 1993.1

Figure 1 shows the breakdown of FY 1992 expenditures by category for both titles
combined. Appendix A provides a comprehensive breakdown of expenditures, by
major category and by semice, for both titles separately and combined.




                Combined Ryan White Expenditures - IT 1992

     HgU#l


            MfwPlan&Eval       (11




        1
            Grant awards are adjusted by HRS~ however, throughout the program year baaed on financial status
reports submitted by grantee& Hence the tlnal grant award amounts for FY 1992 reported by HRSA may differ to
some extent from the figures in this report.


                                                      5
Medical Services: $67.1 Million

Medical semices constituted about a third of combined expenditures. In this category
we placed services related to the direct provision of health care.2 Table 1 shows the
services in this category.

Almost half (46 percent) of       medical semice expenditures went for primary medics)
care. Following were home         health semices (15 percent), mentai health (14 percent),
and substance abuse setices        (12 percent). The other six sefices collectively
accounted for the remaining        13 percent of medical sexvice expenditures.

Pharmaceuticals:     $45.3 Million

Twenty-two percent of expenditures went for pharmaceuticals.     Expenditures under
the We IIprovision of treatments option ($32 million) were 71 percent of all
pharmaceutical expenditures. Title I expenditures for pharmaceuticals ($11 million)
were 24 percent of this categoxy. The remaining $2 million was spent under the Tide
II consortia and home- and community-based care options.

&ID13ort Services: $75.6 Million

Support services were 36 percent of combined expenditures, slightly more than the
proportion spent for medical semices. In this category we included case management,
services listed as support services in HRSA application guidances, insurance
continuation, and a few other semices listed by grantees. See Table 1 for a list of the
services in this category.

Case management accounted for the largest proportion (42 percent) of support service
expenditures. Houszkg assistance, at 13 percent, was the second largest; $8 million of
this $10 million was spent under Title I. About $2 million was spent under the Title 11
health insurance continuation option, amounting to 3 percent of all support semice
expenditures.

Administration:     $22.3 Million

Costs for administration were about 11 percent of combined expenditures. We include
in this category expenditures for admiruktrative costs and planning and evaluation.
Also, we include expenditures reported both at the grantee level (State or city) and at
the Title I planning council and Title II subcontractor levels (consortia and home- and
community-based care options).




       2
           For th~ reaaon, we placed case management in the “support setices” category.


                                                      6
The Act defines adminktrative costs as expenditures for administration, accounting,
reporting, and program oversight and, for both Titles, requires that grantees spend no
more than 5 percent of their grants for administrative costs. However, in September,
1993, HRSA’S Office of the General Counsel issued a legal opinion stating that this
cap applies only to a city or State as Ryan White Act grantee and “not to the
individual service providers who will be the ultimate recipients of the grant funds.”
Hence additional administrative expenditures are allowed pertaining to the Title I
planning councils and Title II subcontractors.

Administrative costs were about 8 percent of all FY 1992 expenditures. Grantee costs
accounted for 5 percent; the remainder went for costs associated with planning
councils or consortia administration.

An additional 3 percent went for planning and evaluation expenditures.

  �	     Some Title I grantees reported such expenditures despite the fact that the
         Act makes no mention of allowances for planning and evaluation for Title I.
         We do not know whether these expenditures were made by at the grantee or
         the planning council level.

  �	     For Title 11, almost all planning and evaluation expenditures were reported at
         the State level; a small amount reported under the Title 11 consortia or
         home- and community-based care options.




                                           7

                                    TITI.E I EXPENDH’UR=

M-services        andsuppt services each conduted about 40pem& of lltle I
qenddum.        Mannaceuticalr were IOpemen& and adminkmtiq   9~m

Information about Title I expenditures is based on reports from 17 of the 18 cities
funded in FY 1992? Collectively these 17 cities reported spending $112,692,350,
which is 93 percent of the amount they were awarded, or 88 percent of Title I funds
awarded (formula and supplemental) to all 18 grantees in FY 1992.

The three largest grantees - New York City, San Francisco, and Los Angeles - spent
about $67 million, or 60 percent of all Title I expenditures reported.

We sometimes refer to Title I grantees in this report as “cities,” and our analysis
relates strictly to their expenditures of FY 1992 Title I dollars. Figure 2 shows the
breakdown of Title I expenditures by categoV. Table 1 on the next page shows these
expenditures broken out by grantee.




                              Title I Expenditures - FY 1992


                                                                Medical Saulw6 (43%)




       Mmln/PM &Evd (9%)




            ~                  (lo%
                                                                            pput se-




        3
            Newarkj New Jersey, had not submitted its rqxxt 10 I{RSA at the time we conducted this study.


                                                       8
Table 1
                                                      Title I
                                            Expenditures by Category
                                           as Percentof all l?qenditures”


                                                                 %            %        %      70
      GRANTEE4                AWA@              SPENT          MED          PHARM     SUPP   ADMIN
 WV York city                 36J90,210        ~45L),mo            33         21        35     11
 Ny. ” ,.:

 $anF@@sco CA                 21,6Q418         21$62J75            61 I           o     31         8
 Los Angels CA                 9,925,225       10,?59,820          50             0     40     11
 Metro Dade Cty                6,740,073         6,587,864         34         14        39     14
 FL (Miami)
 Harris Cty TX                 6>77,597          5S62300           51             1     46         ?L
 (Houston)
 Washington DC                 5,286,485         3,943343          48             2     45         5
  Chicago XL                   4,431,632         4>27,152          54             0     37         9
  Philadelphia PA              4,238,608         2>69,502          40             0     49     11

  San Juan PR                  3,579,982         3,579,983         20         46        19         15
  Boston MA                    3369,149          2,940S2           20             0     80         0
  San Diego CA                 397,916           3054,788          33             0     63         5
  Dallas Cty TX                3,203~0           3,1%320           45             1     48         6

  Fulton Cty GA                3,148,612         2,899,666         74             1     20         5
  (Atlanta)
  Broward Cty FL               3,097,663         3,058,920         45         20        28         6
  (Ft.Lauderdale)
  Hudson Cty NJ                2W,466            2306S81           27             0     68         5
  Oakland CA                   2J23,466          1,975382          32             0     52         0
  Baltimore MD                 1,898,561           918,072         36             0     64         0
  TOTAL               “   $121,189,283       $112,69Z350           na         na        na     na

�May not add to 100 due to rounding,




   4 N~rk    not included.


   5 As of fall, 1993; formula and supplemental funds combined.



                                                         9
Medical semice expenditures, reported by all grantees, were 43 percent of all Title I
expenditures. For nine cities, including New York, medical services constituted a third
to just under half of all expenditures; for five cities, including San Francisco and Los
tigeles, medical services were half or more of all expenditures.

& shown in Table 2, 4 of the 10 semices in this category made up the vast majority of
expenditures, both for all grantees combined and for the three largest grantees. The
table also shows, however, that between the three largest grantees, the proportion of
dollars spent for each service varied considerably.

Table 2
                                                   Title I
                                          Top Four Medical Services
                            as Proportionof All Me&al Service Expenditures ($48.7 M)




                Substance          :,      16%               23%          22%            1270




                TOTAL                      89%


l?imary medical care expenditures            ($23.2 million) were reported by 16 grantees.’
Seven grantees spent between 25             and 49 percent of their medical semice dollars on
this service; seven spent between           50 percent and 97 percent. This semice also
represented the largest proportion            of Title I expenditures, at 21 percent.

Pharm aceuticals: $10.7 Million

Nine percent of Title I expenditures was for pharmaceuticals, reported by eight
grantees. The four top spenders proportionally were San Juan (46 percent), New



     6 W/Me New York spent proportionately less than the other hvo largest granteea on primary medical care, it
spent one fiRh of all its Title I dollars for pharmaceuticakxin comparison, the two California grantees had no
pharmaceutical expenditures. (See Table 1.)

     7 Just prior to issuing this report, we learned that San Diego spent $751,850 and Baltimore spent $766,522 on
primary medical care. Ilwse figures are not included in the report.


                                                        10
York City (21 percent), Fort Lauderdale (20 percent), and Miami (14 percent). The
other four cities each spent 2 percent or less on pharmaceuticals. Two of the largest
grantees, San Francisco and Los Angeles, reported no expenditures for
pharmaceuticals.

SurYDortServices: $43.2 Million.

Support semices expenditures, reported by all grantees, constituted 38 percent of all
Title I expenditures, ranging from 19 percent (San Juan) to 80 percent (Boston) across
grantees.   Nine grantees, including the three largest, spent between 33 and 49 percent
on support services. The five grantees with the highest proportion of Title I
expenditures for support semices (between 52 and 80 percent) all received relatively
small Title I grants (less than $4 million). (See Table 1.)

Table 3 shows the five services that constituted the majority of support service

expenditures, for all grantees combined and for the three largest grantees. Unlike the

medical semice category, where four sexvices comprised the bulk of expenditures,

expenditures in this category were much more spread out across services. However, as

with medical setices, the three largest grantees spent considerably different

proportions of dollars on each sexvice.


Grantees spent the highest proportions of support service dollars on case management

($15 million) and housing assistance ($8 million). These two setices comprised one

i5fth of all Title I expenditures. Furthermore, as Table 3 shows, they comprised over

half of all support semice expenditures.


Table 3

                                                    Title I
                                           Top Support Services
                                as Proportionof all Support SeMces (S43.2 M)


                                        ‘   Ml gralttees,   N*           San         Los
                Support Service                             York      Francisco     Angeles
                Case Management         :’      34%         33%          21%         2s%
                r-rousing                       19%         18%          35%         31%
                Food .Assistance                11%         12%          13%          170
                Outreach/Info. & Ref. ,’        8%.         13%          3%          1070
                Other counseUnot                 7%         8%           o%          14%
                mntl hlth
                TOTAL                           79%         84%         72%8         81%





    8
        San Francisco spent 10 percent each on advocacyand buddyJcompanionseMces.


                                                       11
Sixteen grantees reported case management expenditures.g

  �	         Case management accounted for 13 percent of all Title I expenditures,
             ranging across grantees from 7 percent (San Francisco) to 41 percent (Jersey
             City).

  �	         Case management comprised a third of all Title I support sewice
             expenditures, ranging from 17 percent (Boston) to 81 percent (San Juan),
             spread somewhat evenly across grantees.

Housing assrktance expenditures         ($8 million), reported by 13 grantees, comprised 7
percent     of all Title 1 expenditures, ranging from less than 1 percent (San Diego) to 20
percent     (Boston).

As a proportion      of support     service dollars, only, housi”ngassistance expenditures
                                                                                  ranged
from under 1 percent (San Diego) to 47 percent (Ft. Lauderdale), with 10 of the 13
grantees spending under 25 percent of their support service dollars on this service.

Administration:      $9.9 Million

Expenditures     in this category amounted to 9 percent of all Title I expenditures.

The Act allows Title I grantees to spend up to 5 percent of their grant awards for
athzinistrative costs, with additional expenditures allowed related to planning councils
per HRSA’S Office of the General Counsel. The Act does not address expenditures
for planning and evaluation relative to Title I; however as noted below, some grantees
reported expenditures of this type in addition to administrative costs.

   �	        Seven percent of expenditures were for administrative costs. Three grantees
             reported no expenditures for administrative costs. Grantee expenditures
             reported by the remaining 14 cities amounted to 6 percent of all Title I
             expenditures. As best we can determine from this self-reported, unaudited
             data, it appears that five grantees exceeded the 5 percent cap.

   �	        Six Title I grantees reported spending a total of $1 million in administrative
             expenditures related to planning councils.

   �	        An additional 2 percent went for planning and evaluation (including needs
             assessment), reported by nine grantees. We do not know whether these
             expenditures were made at the grantee or planning council level.




        9
        Just prior to issuing this report, we teamed that San Diego spent $651,393 on case management. This figure
is not included in the report.


                                                        12
Mwrmaauticds and supyw?t sdet?s each accounted for about 33pemer@ @all llde 11
     .
u@m&UWX Medical St7ViC62$W~ 19~~         and a&nin&mtiow 13 percent

Information on Title II expenditures is based on reports from all 54 State and

territorial grantees. Collectively these grantees reported spending $97,911,642. This is

98 percent of the total Title 11 award amount reported by HRSA. $99,754,335.10


The four largest grantees - California, New York, Texas, and Florida - spent $51

million, or 52 percent      of all Title II expenditures.


We sometimes refer to Title II grantees as “States” and our conclusions relate strictly

to their expenditures of N 1992 Title II dollars. Figure 3 shows the breakdown of

Title II expenditures by category. Table 4 on the next page shows these expenditures

broken out by grantee. Appendix B contains tables showing expenditures broken out

by the four major options (as opposed to the four categories, which constitute the

discussion here).





                              Ttile   II Expenditures - FY1992
     R@#u 3

                                                                  ptl~               (s5%)




      10 ‘l%egranteea themselves reported total grant awards cxceedmg HRSA’Sfigure slightly,at $100,205,97S. We
 do not know whether the difference between the figures ISdue 10 errors by grantees, carryover not reported to
 HRSA as of the time we collected this data, or somethmg else.


                                                       13
                                               Title II
                                      Expenditures by Catego~
                                     as Percentof all Eqxmditurea*



                                                       %             %     %          %
  GRANTEE               AWARD        SPENT         MED        PHARM       SUPP       ADMIN
NewYork                 17#i93#58    16#59$H3       .14              41    31    1    14
California          I 16&7,%0        wfw69             14        30        41         16
Florida      “’”“                                      17            49    24    I    10
~~’”                \   8s%737        8,W7,832       ’24             36    52          7
Puerto Rico             5,681,717     4,975,1%         21            46    25          8
NewJersey               4,711,438     4,688,987        2s            35    23         17
Georgia                 3,201,172     3,155,728        28            37    30          6
Illinois                2,829J36      3275,301         12            39    30         20
Pennsylvania            2,536,697     2,702,830        9             42    35         13
Maryland                2368,486      2~,486           49            4     30         17
Massachusetts            1,793,707 - 1,837,845         2s            5     52         18
North Carolina           1,684,757    1,169,266        24            20    53          3
Louisiana                1,672S04     1,727,415        36            0     54         10
Ohio                     1,423,256    1~76,800         5             42    44          9
Virginia                 1,405,219    1,405,219        23            30    28          19
Wash.D.C                 1J85,438     1334,463         11            27    34         28
Missouri                 1330,774     1,289,726        38            43    12          8
Washington               1322$95      1,418,902        50            23    12          14

Michigan                 1,213,083    1,213,083        9             11    73          7
Cf.)nnecticut             999,652     1,068,399        9             34    41          16
OYorado                   838,453       857,391        15            20    49          15
South Carolina            795,067       782,319        32            56    5           7
Alabama                   790,676       788,423        9             83    3           5
Tennessee                 737,498       737,498        0             99    0           1
Indiana                   728,781       898,781        19            61    0           19
Arizona                   687,616       687,616        26            36    32          5


                                                  14
                                                        %      %      70     %
    GIUNTEE              AWARD         SPENT       MED       PHARM   SUPP   ADMIN

 Oregon
                  658351        679,447         9     51      32      8
 Misaiaaippi
             616,440       616,440     46        44      0      10
 Minnesota
               602,682       320,898         16     0      61     22
 Wisconsin
               539,014       526,602         26     0      48     26
 Kentucky
                528,039       299,009         3     73      23      1
 Arkattaaa
               497308        497308          20    49      15     17
 Oklahoma
                490,547       488,209         17    55      14     13
 Nevada
                  443,483       443,483         17    52      20     10
 Hawaii
                  366,974       442,934         10    45      36      9
  Utah
                   329,083       327,846         27    62      11      0
 Kansas
                  274,616       270,693         9     75      10      5
 NewMexico
               254,732       254,714         15    32      44      10
 Rhode Island
            194,400       203,048         0     59      32      10
 Delaware
                173,168       173,168         8     23      63      6
 West Virginia
           168383        168383          6      36     50      8
  Iowa
                   164,436       164,436         13     36     38      14
 Maine
                   163,401       163,401         0      0      100     0
 NewHampahire
            149,133       186J56          15     81     1       3
  Nebraaka
               117,188        90,109         3      77     14      6
 Alaska
                  100,OOO       123,955         18     13     54      16
  Idaho
                  100,OOO       100,OOO         0      90     0       10
  Montana
                100,OOO       100,016         24     36     21      19
  North Dakota
           100,OOO       100,OOO         32     59     0       10
  South Dakota       “    100,OOO       103,386         9      86     0       5
 Vermont                  100,OOO        92,405         0      57     0       43
  Wyoming                 100,OOO       100,001         37     37     16      10
  Virgin Islands            28,087       26,890         7      86     0       7
  Guam                       4323         4,618         0     100     0       0

�May not add to 100 due to rounding.



                                                  15

Medical Semites: $18.4 million

Nineteen percent of Title II expenditures were for medical services. Forty-eight States
reported medical sexvices expenditures, either under the consortia option (it was 34
percent of all consortia expenditures) or the home-and cornrnunity-bwed care option
(87 percent).

Expenditures for medical services ranged across grantees from 1 percent (Kansas) to
63 percent (Mississippi) of total expenditures. However most grantees (35 out of 48,
including the four largest grantees) spent a quarter or less; 21 of the 48, including New
York and California, spent 15 percent or less.

As shown in Table 5, four services accounted for 90 percent or more of Title II
medical semice expenditures, for all grantees combined and for three of the four
largest grantees.

Table    S
                                                      TitleII
                                             Top Four MedicalSeMcea
                              as Proportion of AUMedical Scmice Eqenditures (S18.3 M)

                                                                                     ?lorida   I Texas II

               MedicalCare
               Home Health           ‘ 32%?


               Mental Health       :“’..“.’79$
               TOTAL              .; ;g~% ,.



Primary medical care expenditures totalled $8 million. Almost all were reported by 36
of the 43 States with consortia and this service comprised 15 percent of all consortia
expenditures.

Twenty States reported home health care expenditures ($6 million). This service
comprised 71 percent of all dollars spent under the home- and community-based care
option, compared with 6 percent of all consortia expenditures.




        11 Texas spent more than the other three grantees on haspice (13 percent) and residential care (15 percent).


                                                           16
Pharmaceuticals:   $34.6 Million

Thirty-five percent of Title II expenditures went for pharmaceuticals. Expenditures
ranged across grantees from 4 to 100 percent of total expenditures; for the four largest
grantees they ranged from 17 percent to 49 percent.

Forty-seven of the 54 grantees adopted the pharmaceutical option; 3 adopted only this
option. These 47 grantees collectively spent $32 million on the option - one third of
all Title II expenditures. For 16 States, all with awards under $1 million, this option
accounted for half or more of their total expenditures; for 8 of the 16, it accounted for
70 percent.

For three of the four largest grantees, pharmaceutical expenditures made up 30 to 50
percent of all expenditures; for the fourth grantee (Texas), they were 16 percent.

An additional $2 million on pharmaceuticals under the consortia option was spent by
slightly over half of the States with consortia.

SUDDOI-t Services: $32.4 Million

Support service expenditures were 33 percent of Title II expenditures, considerably
exceeding the 19 percent for medical semices. Forty-four grantees reported support
semice expenditures. For 9 States, support services made up 50 to 75 percent of their
expenditures; for one (Maine) it accounted for 100 percent. For the four largest
grantees, support services were 25 to 50 percent of total expenditures.

Most support sedce expenditures were reported under the consortia option, and
support semices were 58 percent of all consortia expenditures.

Case management, reported by 36 grantees, was the service that accounted for the
greatest proportion of support service expenditures. Grantees spent $17 million on
this service.

   �       Case management constituted 54 percent of all Title II support service
           expenditures the 15 other support sexvices were 6 percent or less, each.

   �       Proportionately, case management expenditures were not evenly distributed
           across grantees. The four largest grantees collectively spent 57 percent of all
           Title II case management dollars; and each of these grantees spent between
           45 and 66 percent of their support sexvice dollars on this one service.

   �       Almost all case management spending was reported under the consortia
           option. Thirty-four of the 43 States with consortia provided case
           management, and this service accounted for a third of all consortia
           expenditures.



                                            17

Administration:   $12.7 Million

The Act allows Title II grantees to spend up to 5 percent of their grant awards for
adnzinkrazive costs (administration, accounting, reporting and program oversight
functions), and up to an additional 5 percent for planning and evak.ztion. According
to HRSA’S Office of the General Counsel, additional expenditures are allowed for
subgrantees (that is, under the consortia or the home- and community-based care
options).

Administrative expenditures were 13 percent of all Title II expenditures:   8 percent for
adrninktrative costs and 5 percent for planning and evaluation.

  �       State expenditures for administrative costs were 4 percent of Title II
          expenditures. As best we can determine from this self-reported, unaudited
          data, it appears that two grantees exceeded the 5 percent cap.
          Administrative costs reported under the consortia and (to a much lesser
          extent) home- and community-based care options totalled another 4 percent.

  �       State expenditures for planning and evaluation also totalled 4 percent. With
          the caveat noted above regarding the quality of the data, we believe that two
          grantees exceeded the 5 percent cap. An additional 1 percent was reported
          for planning and evaluation under the consortia and home- and community-
          based care options.




                                            18

                                    CONCLUSIONS

Medical Semites

This category accounted for one third of all expenditures for both titles combined.
However cities outspent States more than two to one on medical semices. This was
true for the category as a whole ( 43 percent versus 19 percent, respectively, of all
expenditures) as well as for most of the individual services in the category (see
Appendix A), beginning with prima?y medical care. The exception is home healfh care
(4 percent for cities versus 6 percent for States).

Pharmaceuticals

States outspent cities three and a half to one on pharmaceutical   expenditures   (35
percent versus 10 percent, respectively, of all expenditures).

Surmort Semites

For both cities and States, case management accounted for about 15 percent of all
expenditures, and this service accounted for the largest proportion of support se mice
expenditures. However, States spent more of their support semice dollars on this
sefice than cities (54 percent versus 34 percent); also, cities spent higher proportions
on all other semices in the category, beginning with housing assistance.

Administration

& best as we can determine horn the self-reported, unaudited data on administrate i~’e
expenditures submitted by grantees, we believe that Title I expenditures overall for
admz”nkrafive costs slightly exceeded the Congressionally established cap of 5 perce nr.
although most of the grantees appear not to have exceeded the cap. Title II
expenditures overall were below the cap, with only two grantees appearing to exceed
it.

An additional 3 percent of adminkazive cost expenditures were made by planning
councils and consortia or home- and community-based care providers.

Some Title I grantees spent funds for planning and evaluation which amounted to 1
percent of all FY 1992 expenditures. Title II expenditures remained under the cap. at
4 percent.




                                            19

                                              SUMMARY OF RYAN WHITE FY 1992 EXPENDITURES
                                              BY CATEGORY AND BY SERVICE WITHIN CATEGORY
                                                      TITLE 1,TITLE 11,AND COMBINED


                        I     TITLE I           % OF               I    TITLE II        % OF                   I   COMBINED         % OF
                             EXPEND.           TOTAL               I   EXPEND.         TOTAL                   I     TOTAL         TOTAL

TOTAL EXPENDITURES      ~   112,6S2,350          53.5%             I   97,911,642        46.5%                 I   210,603,992      100.0%


                        I                       %OF       %    I                       % OF         %          I                   % OF

                        I     TITLE I          TITLE I   OF             TITLE II      TITLE II       OF        I   COMBINED       COMBINE    :F

CATEGORY/Service             EXPEND.          EXPEND. CATEGORY I       EXPEND.       EXPEND.     CATEGORY      I     TOTAL        EXPEND. CATEGORY

MEDICAL SERVICES        I    48,746,018          43.3%    100.0%   I   t 8,406,760       18.8%       100.0%    I    67,152,778       31 .9%   100.0%
 Medical Care           I    23,229,170          20.6%     47.7%   I     7,624,836        8.0%        42.5%    I    31,054,006       14.7%     46.2%
 Dental Care            I     2,770,711           2.5%      5.7%   I     1,6S7,736        1.7%         @.2%    I     4,468,447        2.1%      6.7%
 Substance Abuse        I     8,005,212           7.1%     16.4%   I      251,452         0.3%         1.4%    I     8,2 S6,664       3.9%    12.3%
 Mental Health          I     7,759,640           6.9%     15.9%        1,329,530         1.4%         7.2%    I     9,069,170        4.3%    13.5%
 Home Health            I     4,253,888           3.8%      8.7%        5,948,S40         6.1%       32.3% I        10,202,528        4.6%    15.2%
 In-Home Hospice              1,013,316           0.9%      2.1%          373,223         0.4%          2.0%         1,386,539        0.7%     2.1%
 Rehab Care             /       968,704           0.s%      2.0%           44,760         0.0%          0.2%         1,034,484        0.5%     1.5%
 Residential Care       I       632,752           0.6%      1.3%          666,324         0.7%          3.6%         1,299,076        0.6%     1.9%
 Inpatient Personnel             91,625           0.1%      0.2%                 0        0.0%          0.0%            91,625        0.0%     0.1%
 Dur. Med. Equip.       I                 0       0.0%      0.0%          270,239         0.3%          1.5%           270,239        0.1%     0.4%

PHARMACEUTICALS         I    10,745,819           9.5%    100.0%       34,632,562        35.4%       100.0%         45,378,381       21 .5%   100.0%
                        I
SUPPORT SERVICES        I    43,213,238          38.3%    100.0%       32,470,285        33.2%       100.0%         75,663,523       35.9%    100.0%
 Case Management             14,743,352          13.1%     34.1%       17,355,868        17.7%        53.5%         32,099,220       15.2%     42,4%
 Housing Asst.          I     8,026,538           7.1%     18.6%        2,077,637         2.1%         6.4%         10,104,175        4.8%     13,4%
 Food Bank/Home Meals         4,786,296           4.2%     11.1%        1,321,785         1.3%         4.1%          6,108,081        2.9%     8.1%
 Outrch/info & Ref.     /     3,456,689           3.1%      8.0%          768,S56         0.8%          2.4%         4,225,855        2.0%     5.6%
 Other Counsel.         I     2,827,464           2.5%      6.5%        1,169,980         1.2%          3.7%         4,017,444        1.9%     5.3%
 “Othef/Not SPOO.             2,204,441           2.0%      5.1%        2,663,737         2.7%          8.2%         4,874,178        2.3%     6.4%
 Client Advocacy        I     1,474,046           1.3%      3.4%          676,794         0.7%          2.1%         2,150,640        1.0%      2.8%
 Day-Respite Care       I     1,308,944           1.2%      3.0%          402,365         0.4%          1.2%         1,711,329        0.8%      2.3%
 Buddy/Companion        I     1,185,134           1,1%      2.7%          485,293         0.5%          1.5%         1,670,427        0.8%      2.2%
 Transpofi              I     1,029,559           0.9%      2.4%        1,959,289         2.0%          6.0%         2,988,848        1.4%      3.9%
 Volunteer Support              808,264           0.7%      1.9%                          0.0%          0.0%           808,264        0.4%      1.1%
 Emerg. Financial       /       526,780           0.5%      1.2%        1,219,946         1.2%          3.8%         1,746,726        0.8%      2.3%
 Legal Services                 313,359           0.3%      0.7%                          0.0%          0.0%           313,359        0.1%      0.4%
 Adopwoster Care        I       256,205           0.2%      0.6%           3Q,050         0.0%          0.1%           295,255        0.1%      0,4%
 Educ/Risk Reduc.       I       174,330           0.2%      0.4%          160,248         0.2%          0.5%           334,578        0.2%      0.4%
 Sign Lang/lnterp,      I        9f,627           0.1%      0.2%           12,000         0.0%          o.o%           103,627        0.0%      0.1%
 Insurance              I                 o       0.0%      0.0%        2,131,317         2.2%          6.6%         2,131,317        1.0%      2.8%
                                                                                                               I
ADMINISTRATION          I     9,987,275           8.9%    100.0%       12,402,035        12.7%       100.0%    I    22,369,310       10,6%    100.0%
 Admin. costs           I     7,738,368           6.9%     77.5%        8,037,122         8.2%        64.8% I       15,775,490        7.5%     70.5%
 Plan/Eval                    2,248,907           2.0%     22.5%        4,364,913         4.5%        35.2% I        6,613,820        3.1%     29.5%
                        I                                                                                      I




                                                                         A-1

                            APPENDIX                  B


                     TITLE II EXPENDH’URES,         BY OPTION

This appendix presents a number of tables that portray Title II expenditures by option.
The four options are: consortia, treatment (pharmaceuticals), home- and community-
based care, and insurance continuation.




                                        B-1

Table 8                                                  Grantee      Expenditures            by Option
                                                             as Proportion of Toted Expenditures



                       State                                   I      Pharma-                I Home& Comm.
State      Expenditures               Consotia           %           ceuticals         %1        Based Care        %            Insuranoe          %
                                                                                          I                              I
  AK                123,955               121,737        98%                 o         o% ]                  o     o% I                      o     o%
  AL                766,423                54,888         7%          554,682         70% I          141,111       18% I                     0     o%
  AR                497,308               460,713        93%                 o         0%1                   o      o% I                     0     o%
  AZ             687,616                  464,227        70%          164,544         27% I                o       o% I                      0     o%
  CA          15,862,488              7,607,254          48%        4,594,012         29%           917,295        6% I           600,000          4%
  co                857,391               552,630        64%          174,662         20%             84,502        6%                       0     o%
   CT              1,068,399              597,171        56% I        364,388         34%                   o       o%                       0     o%
  DC               1,334,463              664,970        51% I        366,054         27%            170,116       13%                       0     o%
   DE               173,188              53,800          31% I          40,000        23%             25,000       14%                 49,200     26%
   FL         10,754,102              5,633,059          54% I      4,455,121         41%                   o       o%                       0     o%
  GA               3,155,728          1,482,554          47% I      1,164,025         37%             45,000        1%            337,056         11%
  GU                   4,878                        0     o% I          4,618          100                   o      o%                   0         o%
   HI                442,934              f75,864        40% I        192,060         43%                    o      o% I               75,000     17%
   1A               164,438                00,000        55% I          58,071        35%                    o      o% I                     0     o%
   ID               100%000                    0          o% I         90,000         90%                    o      o% I                    0      o%
    IL             3,275,301          1,860,633          57% I      1,273,875         39%                    o      o% I                    0      o%
   IN                8Q8,781            308,194          34% I        551,945         61%                   o       o% I                     0     o%
   KS                270,883                        0     o% !        203,S14         75%             25,532        9%                 27,713     1o%
   KY                299,008                   0          o% I        212,715         71%             14,016        5%                 6e,646     23%
  u                1,727,415          1,124,648          65% I                    o    o%            423,258       25%                 12,857      1%
  MA               1,537,645          1,195,000          65% I          73,080         4%            386,000       21%                        0        o%
  MD               2,388,488          1,828,532          77% I         100,000         4%            237,252       10%                        0        o%
  ME                 163,401              163,401        100 I                    o    o%                     o     o%                        0        o%
   Ml              1,213,06S              012,929        75%           129,500        11%             90,000        7%                        0        o%
  MN                 320,888              199,3e9        62%                  o        o%                     o     o%                 79,763     25%
  MO               1,288,726              636,442        49%           648,181        43%                     o     o%   1                   0     o%
  MS                 616,440                     0        o%           272,637        44%            264,645       46% I                    0          o%
  MT                 100,016               57,970        S8%            30,63s        31%                   o       0%1                 4,286          4%
  NC               1,189,266              947,422        81%           221,644        19%                   o       o% I                      0        o%
  ND                 100,000               90,000        00%                  o        o%                   o       o% 1                      0        o%
  NE                  90,108               15,592        17%            89,297        77%                 900       1% 1                      0        o%
  NH                 186,356                    0         o%           150,393        81%             29,564       18% I                      0        o%
   NJ              4,686,987          2,407,708          51%         1,613,087        34%            205,602        4% 1                      0        o%
  NM                 254,714               63,000        25%            81,214        32%             38,000       15% I               50,000     20%
   NV                443,463                        0     o%           232,000        52%            165,230       37% I                      0        o%
   NY         18,269,813              8,179,780          50%        6,608,157         41%                     o     o% I                      0        o%
  OH               1,376,800              70S,92S        51%           571,478        42% I                   o     o% 1                      0        o%
   OK                488,208              160,000        33%           241,299        49% I           62,500       13% [                      0        o%
   OR                679,447            280,323          41%           341,680        50% I                   o     o% 1                      0        o%
   PA              2,702,630          1,495,888          55%         1,136,075        42% I           20,516        1% 1                      0        o%
   PR              4,975,198          2,640,859          57%         1,e25,497        39% I                 0       o% I                      0        o%
    RI               203,048                     0        o%           119,700        59% I                o        o% I               64,000     32%
   Sc                782,319              297,252        38%           368,404        47% I           60,000        8%                       0     o%
   SD                103,386                        u     o%            88,87e        64% I           32,507       31%                        0        o%
   TN                737,498                        o     o%           729,007        99% I                    o    o%                        0        o%
   TX              8,197,532          5,650,886          8s%         1,200,000        15% I                    o    o%             757,422             9%
   UT                327,546             99,067          30%           202,719        62% I           26,060        8%                    0            o%
   VA              1,405,219            871,219          62%           400,000        28% I                 o       o%                    0            o%
    VI                26,680                        0     o%            22,680        66% I               2,000     7%                    0            o%
  v-r                 92,405               30,000        32%            52,405        57% I                    o    o%                        0        o%
  WA               1,418,902              712,451        50%           329,173        23% I          272,566       19% I                      0        o%
   WI                526,602              460,878        91%                      o    o% I                    o    o% 1                      0        o%
  w                  188,363              10S,016        65%                50,000    30% I                    0    o% 1                      0        o%
  WY                 100,001               48.577        49%            37,249        37% I                    0    o% 1                4,175          4%
                                                                                          I
TOTAL         97,911,642             51,970,653          53% ,     32,410,740         32% I        3,729,376        4%     I     2,131,317             2%

          “ This    table doea not show   adminislMmn,       u evaluatirm    md   planning   expendwree    8tTCludedm told     State    expmditurea.




                                                                                                   B-2

Table 9
                                              Expenditures by Option
                                               All Grantees (N=54)


              Option                         # Grantees        Expend.on       Aa % of Total
                                              Providing         Owion       Exvend.[$97.9M)”
              Consortia                  I       43             $51.9M               53%
              Pharmauxticala             I       47             $32.4M               33%
              Home- & Cmun.-
              BasedCare
                 1 2s                   $3.7M                470



              Inauranee                  I       13
            $2.1 M               2%
              Total All Options I                na
            $90.2M               92%

                     * Including expenditures for administration and ptanningkvaluation.




Table 10
                                             Expenditures by Option
                                             Four Largest Grantees
                                  as Percent of Each Grantee’s Total Expenditures


           Grantee .            Total          % GxIsortia        % Pharm.       % H-      70   Inaur.
                               Expend.*                                             CBC

           NewYork I           S16.2M
           California !        S15.8 M
           Florida     .   I   $10.7M
           Texaa           I   $8.1 M                 69%       115%10%19’%

                     * Including expenditures for admuustratmrt and planningkvaluation.




                                                        B-3

‘I?mbk
     11

                                 Percent of Title 11Expenditures

                      Spent by Four Largest Granteesvs All Other Grantees

                                            @ Option


          Option                    Expend.        % Largest Grantee3           % Other
                                                        (N=4)               Grantees (N=50)

          All Options combmed                                                    47%
          Consortia             ~   $51.9 M    ~         53%            ~        47%
          Pharmaceuticals       I   $324 M     I         52%            i        48%
          Home- & Community-        $3.7 M               25%                     75%
          Based Care

          InmramxContinuation[      $21 M      I         64%            [        36%




                                              B-4

